OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/UGANDA’S
COMPLIANCE WITH
FINANCIAL AUDIT
REQUIREMENTS REGARDING
FOREIGN RECIPIENTS
AUDIT REPORT NO. 4-617-07-001-P
DECEMBER 05, 2006




PRETORIA, SOUTH AFRICA
Office of Inspector General




December 05, 2006


MEMORANDUM


TO:                  USAID/Uganda, Mission Director, Margot Ellis

FROM:                Regional Inspector General/Pretoria, Nathan S. Lokos /s/

SUBJECT:             Audit of USAID/Uganda’s Compliance with Financial Audit Requirements
                     Regarding Foreign Recipients (Report No. 4-617-07-001-P)

This memorandum transmits our final report on the subject audit. In finalizing this report,
we considered management comments on our draft report and have included your
response in its entirety as Appendix II.

The report has one recommendation to help USAID/Uganda improve its financial audit
program with regard to foreign recipients. In response to the draft report, the Mission
concurred with the recommendation and will implement corrective action to address this
recommendation. Therefore, we consider that a management decision has been
reached for this recommendation.

Please provide the Audit, Performance and Compliance Division (M/CFO/APC) with
evidence of final action in order to close Recommendation No. 1.

I appreciate the cooperation and courtesy extended to my staff throughout the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
Pretoria 0181, South Africa
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objectives ................................................................................................................ 3

Audit Findings ................................................................................................................. 4

Did USAID/Uganda ensure that planned financial
audits of foreign recipients were performed and submitted
in accordance with USAID rules and regulations? ............................................................ 4

     Audit Reports Not Submitted Within
     Required Timeframe .................................................................................................. 4

Did USAID/Uganda ensure that annual audit plans
included all recipients from its award inventory
that required a financial audit? .......................................................................................... 6

Evaluation of Management Comments ......................................................................... 8

Appendix I – Scope and Methodology .......................................................................... 9

Appendix II – Management Comments ....................................................................... 11
SUMMARY OF RESULTS
The Regional Inspector General/Pretoria performed this audit to determine whether
USAID/Uganda effectively managed its financial audit program in accordance with
USAID policies and procedures for fiscal years 2004 and 2005. (See page 3.)

USAID/Uganda did not effectively manage its financial audit program during the period
covered by the audit. Specifically, USAID/Uganda did not ensure that planned audits of
foreign recipients were performed in a timely manner or that delinquent audits were
followed up on and completed. To help correct and strengthen its financial audit
program, we recommended that USAID/Uganda develop and implement an audit
tracking system to better monitor so as to ensure timely submission of planned audits.
(See pages 4 – 6.)

Nevertheless, USAID/Uganda did ensure that foreign recipients requiring financial audits
were included in the audit plan. The Mission prepared and submitted their annual audit
plans for fiscal years 2004 and 2005 and those plans were complete. (See pages 6 – 7.)

The Mission concurred with the recommendation mentioned above and plans to develop
and implement an “Audit Plan Implementation Tracking Work Sheet,” revise its
notification letter to recipients, establish specific due dates and requirements for
selection of audit firms and submission of required recipient-contracted audits. The
Mission will also review the status of all audits on a timely basis and will take corrective
action for audits that are not progressing as planned. (See pages 11 – 12.)

Finally, during the audit it was noted that USAID/Uganda’s relevant mission order did not
include policies and procedures for close-out audit of awards in excess of $500,000. No
recommendation was made addressing this issue, because all funds under expired
awards had previously been covered by audits received by the Mission. However, we
did suggest that the Mission revise its relevant mission order to include policies and
procedures for close-out audit of awards in excess of $500,000. The Mission agreed
with this suggestion. (See page 12.)




                                                                                          1
BACKGROUND
USAID administers most of its foreign assistance programs by awarding contracts,
grants and cooperative agreements to U.S.-based and foreign organizations. In order to
help ensure accountability over funds given to such organizations, USAID and the Office
of Inspector General (OIG) have jointly developed a financial audit program as outlined
in Automated Directives System (ADS) 591. This section of the ADS requires that
USAID missions, in consultation with the cognizant Regional Inspector General (RIG),
ensure that required financial audits are conducted for foreign for-profit and nonprofit
organizations and host government entities (including any Mission-funded activities in
nonpresence countries), and local currency special accounts.

All foreign nonprofit organizations expending more than $300,000 of USAID funds during
their fiscal year are required to have an annual financial audit performed. A closeout
audit is required for awards in excess of $500,000. Incurred cost audits must be
performed annually of all foreign for-profit organizations performing under direct awards
or cost reimbursable host country contracts and subcontracts.1 To ensure that such
audits are performed in a timely and acceptable manner, missions are required to
develop annual audit plans which are populated from inventories maintained by the
missions of all contracts, grants and cooperative agreements, including cash transfer
and nonproject assistance grants, awards financed with host-country-owned local
currency and activities in nonpresence countries for use in determining audit
requirements.

The audits are normally performed by independent auditors acceptable to the cognizant
RIG and contracted by recipients using a standard statement of work. On occasion,
USAID missions may contract directly with an audit firm to conduct financial audits of
foreign recipients or locally-incurred costs of U.S.-based recipients. Audits of USAID
recipients are required to be performed in accordance with U.S. Government Auditing
Standards as well as the OIG’s Guidelines for Financial Audits Contracted by Foreign
Recipients. Missions must ensure that such audit reports are submitted to the cognizant
RIG for review and issuance no later than nine months following the end of the audited
period.

In fiscal year 2005, USAID/Uganda had 14 non-U.S.-based recipients. During fiscal
years 2004-2005, the Mission reported budget authorizations totaling $104.1 million for
programs in:

     •   Economic Development.
     •   Human Capacity.
     •   Governance and Conflict.




1
  In terms of a 2005 revision to ADS 591, there is no automatic requirement for annual incurred cost audits
for foreign for-profit organizations. Instead, Missions are required to annually assess risks to determine
whether financial audits are warranted and the results of these risk assessments must be shared with the
cognizant RIG office.


                                                                                                         2
AUDIT OBJECTIVES
An audit of the Mission’s compliance with financial audit requirements regarding foreign
recipients was performed because Regional Inspector General/Pretoria’s (RIG/Pretoria)
experience is that USAID missions in eastern and southern Africa have generally not
been complying with Automated Directives System (ADS) 591 in terms of ensuring that
required financial audits of foreign recipients are conducted in a timely and acceptable
manner. To determine USAID/Uganda’s compliance with USAID rules and regulations
regarding financial audits of its foreign recipients, the audit was performed to answer the
following questions:

Objective No. 1: Did USAID/Uganda ensure that planned financial audits of foreign
recipients were performed and submitted in accordance with USAID rules and
regulations?

Objective No. 2: Did USAID/Uganda ensure that annual audit plans included all
recipients from its award inventory that required a financial audit?




                                                                                         3
AUDIT FINDINGS
Did USAID/Uganda ensure that planned financial audits of
foreign recipients were performed and submitted in accordance
with USAID rules and regulations?
USAID/Uganda did not ensure that all planned financial audits of foreign recipients2 were
performed and submitted in accordance with USAID rules and regulations.

The majority of USAID/Uganda’s planned financial audits of foreign recipients were not
submitted to RIG/Pretoria within nine months after the end of the audited period, as
required by the Office of Inspector General’s Guidelines for Financial Audits Contracted
by Foreign Recipients (Guidelines). For the 12 audit reports received by RIG/Pretoria,
the average submission time was 129 days (approximately 4 months) after they were
due. The subsequent sections of this report will more fully address this area in detail.

USAID/Uganda has planned for and submitted its audit inventories and audit plans to
RIG/Pretoria for fiscal years 2004 - 2005. Since October 6, 2003, RIG/Pretoria has
issued 15 financial audit reports of USAID/Uganda recipients covering $14.1 million in
expenditures of USAID funds.       Those audit reports included recommendations that
addressed $514,921 in questioned costs, 26 internal control weaknesses, and 28
instances of material noncompliance with applicable laws and regulations.

While the above financial audit work has undoubtedly had a positive effect on
USAID/Uganda’s accountability over USAID funds expended by foreign recipients, there
were several areas in which USAID/Uganda could improve its recipient financial audit
program including timeliness and follow-up on delinquent audits.


Audit Reports Not Submitted
Within Required Timeframe
Summary: According to Agency regulations, USAID missions must submit audit reports
of foreign recipients to the cognizant Regional Inspector General (RIG) no later than nine
months after the end of the audited period. USAID/Uganda submitted all 12 of the audits
planned for fiscal years 2004 to 2005. Eight of the twelve were submitted to
RIG/Pretoria after the required timeframe. This occurred because USAID/Uganda had
not developed an effective system to track and follow up on planned audits. Audits that
are not completed in a timely manner reduce USAID’s accountability over funds awarded
to recipients.

Automated Directives System (ADS) 591.3.2.1 requires that foreign nonprofit
organizations and host governments that expend $300,000 or more of USAID funds
during their fiscal year must have an annual audit conducted in accordance with the

2
   For the purpose of this audit, foreign recipients include non-U.S.-based grantees and
contractors who were awarded grants, contracts, cooperative agreements and implementation
letters.


                                                                                        4
Office of Inspector General’s Guidelines for Financial Audits Contracted by Foreign
Recipients (Guidelines). Paragraphs 1.16 and 2.3 of the Guidelines spell out the
timeframe within which recipients must submit final audit reports to the cognizant USAID
mission, which, in turn, will forward them to the RIG for review and issuance. According
to the Guidelines, the cognizant RIG must receive the audit report no later than nine
months after the end of the audited period.

USAID/Uganda’s annual audit plans prepared for fiscal years 2004 and 2005 included
12 distinct planned financial audits of 7 different recipients. The breakdown of the 12
audits is presented in Table 1 below.

                                         Table 1
               Recipient Audits in Annual Plans for Fiscal Years 2004-2005

                   Number of recipients             # of annual         Totals
                                                   audits in plans
                              1                           3                3
                              3                           2                6
                              3                           1                3
                              7                                           12

Seven (58%) of the twelve audit reports were initially rejected. On average, audit reports
were submitted 129 days (approximately 4 months) after they were due. The Mission
has since submitted the audit reports as stated in USAID/Uganda’s memorandum dated
October 27, 2006 (See Appendix II).

The lack of timeliness was caused by several factors. One of the principal factors was
that the Mission had not developed or implemented an effective tracking system to
ensure that the planned audits were performed and submitted within the required
timeframe. As a result, eight of the planned audits were not submitted in a timely
manner. One of the contributing factors for lack of timeliness in submitting the audit
reports was the need for these reports to be sent back to audit firms for correction or
additional work. Although these audit reports were eventually corrected and resubmitted
to RIG/Pretoria, the additional work required more time to complete. Further, the
independent audit firms had high staff turnover leading to lack of institutional memory on
conducting recipient-contracted audits in accordance with U.S. Government Auditing
Standards and OIG Guidelines.

USAID/Uganda’s implementation of its action plan in response to a previous audit “Audit
of the Accuracy of USAID/Uganda’s Recipient Audit Universe” (Report No. 4-617-00-
010-P) has contributed to timely submission of four of the twelve audit reports in their
annual audit plans. However, other required audits were not submitted within the
required timeframe. Delayed performance and submission of audit reports reduces
USAID’s accountability over funds awarded to recipients. This also increases the risk
that recipients’ financial records are no longer available for audit, or that their offices may
have ceased operations, making the determination and recovery of potential questioned
costs difficult or impossible. Even when records do exist, or the recipient is still in
operation, untimely audit reports lose their usefulness because management (USAID or
recipient) cannot, based on the reports, implement corrective actions in a timely manner
to help prevent potential fraud, waste and abuse.



                                                                                             5
For the mission to be able to submit timely audit reports to RIG/Pretoria, it must have an
updated system to monitor the status of planned audits and dedicated personnel to
provide interventions when targeted milestones are not being met. Therefore, we are
making the following recommendations:

   Recommendation No. 1: We recommend that USAID/Uganda develop and
   implement an effective audit tracking system to monitor the recipient financial
   audit process to ensure timely submission of reports to RIG/Pretoria. This
   system should, at a minimum, include controls to ensure that:

   •   Appropriate timing targets and milestones are set for each audit in the
       Mission’s current audit plan.
   •   Audit instructions are sent to recipients prior to the recipient’s fiscal year end
       requesting them to initiate the procurement for the audit.
   •   Periodic follow-up is performed to determine the implementation status of all
       planned audits.
   •   Corrective actions are taken and documented for audits that are not
       progressing as planned.

Did USAID/Uganda ensure that annual audit plans included all
recipients from its award inventory that required a financial
audit?
USAID/Uganda did ensure that annual audit plans included all recipients from their
award inventories that required a financial audit.

As required by ADS 591.3.4.2, USAID/Uganda developed award inventories for fiscal
years 2004 and 2005 which included the required information for each award, such as
contractor/grantee name, type of organization, award number, amount in U.S. dollars,
start/completion dates, prior audits and period covered, receipt date for required audits,
dates for planned audits, and reason(s) for not including an award in the annual audit
plan. The Mission also developed an annual plan for each of those fiscal years which
included 12 distinct audits of foreign recipients receiving awards listed in those
inventories.

USAID/Uganda prepared the award inventories and related audit plans as required and
all awards that required audits were included in the audit plans. The Mission Order Nos.
500-07A, dated December 7, 1999 and 500-30B, dated March 31, 2005 were
comprehensive in their scope of audit policy and procedures; however, they did not
include policy and procedures regarding closeout audits.

Closeout audits are important tools in the control and accountability of USAID funds.
Such audits may be used, among other things, to finalize indirect cost rates and to
determine whether the disposition of USAID-funded assets was properly performed at
the end of a project or activity. A closeout audit of expenditures of USAID funds would
be especially important when a recipient may have expended less than $300,000 in any
single year, but the total award was over $500,000. Such recipients may never have
been subjected to a USAID audit as required. Further, according to ADS 591.3.3.2,
Contract/Grant Officers cannot proceed with the closeout process until final action has
been taken on all audit recommendations. Finally, because they were not included in


                                                                                            6
the Mission’s audit plans during the period they were due, such audits would not likely
be performed within the required timeframe.

As stated in ADS 591.3.3.2, certain annual audits can be accepted as fulfilling the close-
out audit requirements. The Mission’s annual audit plans included all recipients from its
award inventories that required a financial audit therefore auditors did not find any audits
that required close-out audits. However, to help ensure that all awards requiring financial
and/or closeout audits are considered in the Mission’s audit plans, we suggest
USAID/Uganda amend Mission Order No. 500-07A dated December 7, 1999 to include
procedures for closeout audits.




                                                                                          7
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, USAID/Uganda concurred with both of the
recommendations. For Recommendation No. 1, the Mission will institute procedures to
address the controls stated in the recommendation. In addition, USAID/Uganda will
ensure that the status of all audits are reviewed on timely basis and corrective actions
are taken and documented for audits that are not progressing as planned. The Mission
provided a copy of its revised audit plan implementation tracking worksheet which
identifies required due dates and milestones for ensuring timely receipt of audit reports.
Therefore, we consider that a management decision has been reached for
Recommendation No. 1.

As of the date of USAID/Uganda’s management comments, the Mission had submitted
all delinquent recipient contracted audit reports and currently, there are no delinquent
audits. Therefore we have removed Recommendation No. 2 from the final report.

On other matters, the Mission plans to develop and amend Mission Order Nos. 500-07A
and 500-30B to include policies and procedures for close-out audits of awards in excess
of $500,000 to help ensure that required close-out audits are performed.




                                                                                        8
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria performed this audit in accordance with
generally accepted government auditing standards. The audit was performed at the
Regional Inspector General/Pretoria. The audit notification was sent on December 20,
2005 and the audit was performed from March 24 to April 18, 2006. Additional
clarification regarding the audit findings was received from the Mission on July 12, 2006.

The audit covered financial audit requirements for USAID/Uganda’s awards to non-U.S.-
based recipients during fiscal years 2004 and 2005.

The type of evidence examined during the audit included, but was not limited to, award
inventories and audit plans submitted by the Mission for fiscal years 2004-2005,
RIG/Pretoria’s Audit Management Database and archives, and correspondence from the
Mission.

For the most part, we relied on the accuracy and completeness of the award inventories
that were submitted by the Mission to RIG/Pretoria because we believe that the
responsibility for preparing award inventories rests with the Mission’s Audit Management
Officer, who should have the technical capacity to prepare reliable award inventories.
The primary focus of our audit was the development and execution of the annual audit
plans from those award inventories. Thus, with few exceptions, we limited our
procedures to determine whether data in the award inventories were properly used to
develop the audit plans and whether those audit plans were executed in an acceptable
and timely manner. We recognize the limitations of our reliance on the accuracy and
completeness of the award inventories, and hereby disclose this in the audit report—the
primary limitation being that all awards requiring a financial audit may not have been
included in the Mission’s award inventories. Further, expiration dates and total amounts
of awards in inventories may not have been accurate.

With regard to internal controls, we assessed:

•   Award inventories.
•   Audit plans.
•   Mission orders regarding financial audits.


Methodology
To accomplish the audit objectives, we reviewed and analyzed the annual audit plans
and award inventories submitted to RIG/Pretoria for fiscal years 2004 and 2005 for
USAID/Uganda. We compared audit reports actually submitted to RIG/Pretoria to
planned audits listed in the Mission’s audit plans in order to determine the timeliness of
the submission. We compared the audit plans to the award inventories to determine the
accuracy of the audit plans. To determine recipients requiring closeout audits, we
reviewed the Mission’s award inventories and selected awards above $500,000 that



                                                                                        9
                                                                            APPENDIX I


were not subject to an annual audit in the eleven-month period prior to the program
completion date. The audit also included a review of correspondence between
RIG/Pretoria and the Mission regarding award inventories and annual audit plans. We
also requested additional information from the Mission when required.

For materiality thresholds, we considered the following to be material:

•   Timeliness of submission of audit reports - if the number of acceptable audit reports
    submitted after the nine-month due date was greater than 10 percent of the number
    of planned audits, we considered the lack of timeliness to be material.

•   Delinquent audit reports – any number of delinquent planned audit reports was
    considered to be material.

•   Completeness and accuracy of audit plans – any number of required audits not
    included in the audit plans was considered to be material.

This was one of a total of nine similar audits that we are performing of USAID missions
within the eastern and southern Africa region. As RIG/Pretoria already possesses most
of the information needed to conduct the audits, we did not consider travel to the
locations of the respective missions to be necessary. Any questions regarding audit
procedures or preliminary results were handled via email or telephone.




                                                                                      10
                                                                            APPENDIX II



MANAGEMENT COMMENTS



Memorandum
                                                                     October 27, 2006

TO:          Nathan Lokos, Regional Inspector General/Pretoria

FROM:        Elzadia Washington, A/Mission Director /s/

SUBJECT: Audit of USAID/Uganda’s Compliance with Financial Audit
Requirements Regarding Foreign Recipients – Report No. 4-617-06-XXX-P

Regarding OIG/Pretoria’s subject audit dated September, 2006 Mission would like to
provide the following comments to improve the recipient financial audit program and the
timeliness and follow-up on delinquent audits.

RECOMMENDATION No. 1: We recommend that USAID/Uganda develop and
Implement an effective audit tracking system to monitor the recipient financial audit
process to ensure timely submission of reports to RIG/Pretoria. This system should, at a
minimum, include controls to ensure that:

   o Appropriate timing targets and milestones are set for each audit in the Mission’s
     current audit plan.
   o Audit instructions are sent to recipients prior to the recipient’s fiscal year end
     requesting them to initiate the procurement for the audit.
   o Periodic follow-up is performed to determine the implementation status of all
     planned audits.
   o Corrective actions are taken and documented for audits that are not progressing as
     planned.

MISSION RESPONSE: Currently the Mission sends out an audit request letter to the
grantee forwarding the statement of work and a list of approved CPA firms in addition to
the OIG’s Guidelines for Financial Audits Contracted by Foreign Recipients noting audit
requirements. To improve the timeliness of reports to RIG/Pretoria, Mission will institute
the following procedures:




                                                                                        11
                                                                            APPENDIX II


   o Develop and implement an “Audit Plan Implementation Tracking Work Sheet”
     (Attachment I-to be revised when final FY ’07 audit plan is established) which
     identifies required due dates and milestones for ensuring the timely receipt of
     audit reports to include: 1) date when audit request letter is sent to recipient;
     2)date of review of audit contract by USAID/Uganda FMO (30 days prior to
     recipients FY end); date of 1st required follow-up (3 months after delivery of audit
     request letter); 3) date of 2nd required follow-up (6 months after delivery of audit
     request letter), 3) date when a signed copy of the audit report is due to be
     delivered to RIG/Pretoria.

   o Revise Mission’s notification letter to recipients, establishing specific due dates
     and requirements for selection of audit firm and submission of required Recipient
     Contracted Audit. Additionally, letter identifies follow-up reporting dates for
     USAID/Kampala FMO (Attachment II).

   o Additionally, USAID/Kampala Mission will ensure that the status of all audits are
     reviewed on timely basis and corrective actions are taken and documented for
     audits that are not progressing as planned by incorporating a review of the
     “Audit Plan Implementation Tracking Worksheet” during our regularly scheduled
     meetings of the Mission’s Management Control and Review Committee; which
     also reviews audit findings, management decisions and closure status for all
     outstanding recommendations.

RECOMMENDATION No. 2: We recommend that USAID/Uganda obtain and submit
audit reports for all recipients with delinquent audits.

MISSION RESPONSE: Mission has submitted all delinquent recipient contracted audit
reports at the date of this Memorandum, and is pleased to note that currently there are no
delinquent audits.

OTHER MATTERS: As identified in your review of Mission Order Nos. 500-07A and
500-30B regarding audit plans inventories lacking policies and procedures for Close-Out
audits of awards in excess of $500,000. USAID/Uganda Mission will develop and amend
existing Mission orders to include close-out audit policies and procedures for awards in
excess of $500,000.
However, please note that the Mission’s office of Acquisition and Assistance, in
coordination with CTO’s and FMO does currently ensure that required close-out audits
are performed for all awards in excess of $500,000.

USAID/Uganda Mission appreciates this opportunity to provide comments relative to
subject audit report and if appropriate would appreciate inclusion of OIG comments
regarding Recommendation 1, on the adequacy of planned improvements to Mission
audit follow-up policies and procedures. Additionally, regarding Recommendation 2, a
statement to the effect that “as the date of this report USAID/Uganda Mission has no
delinquent audits” would also be appreciated. If you have any further questions or




                                                                                       12
                                                                            APPENDIX II


concerns regarding the above identified procedures or related attachments, please do not
hesitate to contact Mission Controller, Roger Lapp.




                                                                                       13
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
